o do* (21
/i6

No. USCA6 19-584

3
IN THE
UNITED STATES SUPREME COURT

Nehemiah Rolle, Jr.,
Petitioner,
v.
Norman St. George
Respondent.

On Petition for Writ of Certiorari
to the United States Court of Appeals for the Second Circuit

PETITION FOR A WRIT OF CERTIORARI

Nehemiah Rolle, Jr., Petitioner
Acting as his own lawyer
909 3rd Avenue 6096
New York, New York 10150
646-387-1630

RECEIVED
AU6 - 6 2021
OFFICEQF THE CLERK
SUPREME COURT. U.S.

iSONS FOR GRANTING WI
1. Does a state court judicial officer like Respondent Norman St. George have
the right to malicious criminally slander and libel and malicious defame the Petitioner
with false slanderous and defamatory utterances repeatedly to the top state NAACP
official over the phone over a weekend in order to destroy the Petitioner’s reputation
within the NAACP just because the Petitioner made a legal written complaint of
concern of what he saw in the state court which the Respondent was supposed to be
supervising? And does that Respondent have “absolute immunity” or even judicial
immunity from Petitioner’s lawsuit of equity to redress deprivations of any of his rights,
privileges, or immunities secured by the Constitution and laws of the United States in
an action at law and in a suit of equity, brought via Title 42 U.S.C. Section 1983 etc...
action where the Petitioner is seeking to obtain a declaratory judgment by a jury trial
against the Respondent and then Petitioner seeks to enforce the judgment or show that
according the particular circumstances presented such declaratory relief was not
available, See, Hoover v. Tucker CA4/1 Court ofAppeal, Fourth Appellate District
Division One State of California quotingfrom pages 8 and 9; and so does the
Respondent have so-called “absolute immunity” or even judicial immunity?

Petitioner says no the Respondent does not have “absolute immunity” or even
judicial immunity against equity lawsuit brought via a Title 42 U.S.C. Section 1983
seeking to obtain a declaratory judgment by a jury trial against the Respondent for

i

repeated acts of criminal

amation and slanderous malicic

tterances and hate

speech against Petitioner where Respondent engages in an ongoing retaliation campaign
secretly to destroy the Petitioner’s public reputation and character and by these criminal
acts ?

2. Is state a judicial officer who has engages in knowingly and intentional such
slanderous and criminally defamatory and .perj urious acts against the Petitioner are.
frivolous just because the Federal judge Ann M. Donnelly does not like that the
Petitioner’s Federal equity lawsuit seeking a declaratory judgment on his claims against
the who is also a state judicial officer no answer for the Respondent was allowed to be
made by judge Donnelly; and is Federal judge Donnelly right on her fictitious
assumption the Plaintiff-Appellant’s claims regarding criminal acts of defamation and
slander by the Defendant-Appellee Plaintiff-Appellant that the Federal Courts
Improvement Act 799<5which amends Title 42 USC Section 1983 gives the Respondent
so-called “so-called absolute immunity” or judicial immunity from equity lawsuits and
Title 42 USC Sectionl983 Federal Complaints seeking declaratory judgment and gives
Respondent no “absolute immunity” from the criminal acts that Petitioner cites as
claims in his Federal Complaint are which is backed-up with eyewitnesses notarized
affidavits against the Respondent?

Petitioner says no to 2nd question presented; that Federal judge Ann
M. Donnelly is wrong in her Memorandum and Order and Decision on both points that
Petitioner’s equity lawsuit brought against the Respondent via Title 42USC Section
ii

1983 seeking a declarator judgment on Petitioner’s claims

nst the Respondent is

barred by statute. Further, Federal judge Ann M. Donnelly is wrong that the Federal
Courthouse Improvement Act 1996 which amended the Title 42 USC Section 1983 bars
across the board in all circumstances Petitioner’s Title 42 USC Section 1983 equity
lawsuit seeking a jury trial for a Declaratory judgment on the Petitioner’s claims
against the Respondent and if Declaratory relief/judgment is unavailable then Petitioner
would seek injunctive relief against the Respondent; P says Federal judge Donnelly is
wrong and does not even address or acknowledge the fact that the Petitioner is also
bringing a law of equity against the Respondent and I the Petitioner says I must prevail
on those grounds outright and this case must be sent back down for a jury trial by the
United States Supreme Court. Petitioner’s next, legal reason why the Circuit Court’s
false and fraudulent and perjurious and defamatory Summary Order against the
Petitioner and Federal judge Ann M. Donnelly’s false and Fraudulent Memorandum
and Order and Decision and Judgment must be vacated and reversed by the
United States Supreme Court on the legal merits is because the Circuit does even
address or review the pertinent legal issues and .facts with correct findings of fact and
conclusions of law and not fantasy and the Circuit Court alleged claim of quote “liberal
construction ....” is total falsehood and criminal fraud simply because the Circuit does
not want to deal with the legal issue that I the Petitioner am bring an action at law
and in a suit of equity, brought via Title 42 U.S.C. Section 1983 etc... action where the
Petitioner is seeking to obtain a declaratory judgment by a jury trial against the
iii

Respondent for certain c

inal acts aforementioned done a

st me, the Petitioner

while off the bench over a weekend and then Petitioner seeks to enforce the judgment
and the Circuit Court and hederafjudge Ann MTDonnetlylmows that the Petitioner's"
Federal Complaint is an equity lawsuit brought in accordance with Title 42 U.S.C.
Sections 1983, 1985, and 1988 of The Civil Rights Act specifically the provision seeking
equitable relief and declaratory judgment and the Respondent has no alleged absolute
immunity or judicial immunity from Title 42 U.S.C. Sectionl983 Civil Rights equity
lawsuit where the Petitioner is seeking a declaratory judgment and not seeking any
monetary relief whatsoever; see, Hoover v. Tucker CA4/1 Court ofAppeals,
Fourth Appellate District Division One State of California quoting “In 1996, Congre ss
Amended section 1983 and added the following with respect to judicial immunity: "[I]n
any action brought against a judicial officer for an act or omission taken in such
officer's judicial capacity, injunctive relief shall not be granted unless a declaratory
decree was violated or declaratory relief was unavailable." As we read this provision, it
limits the power the court recognized in Pulliam to instances where either the conduct
to’be enjoined was the subject of an earlier declaratory relief judgment or such earlier
relief was not available to the litigants. Thus, by its terms, the 1996 amendment
effectively requires litigants who wish to use section 1983 to enjoin the conduct of a
judicial officer to either first obtain a declaratory judgment and then enforce the
judgment or show that under the particular circumstances presented such declaratory
relief was not available. In the absence of those circumstances, judicial officers are

iv

immune even from pro si

've injunctive relief available ur

Pulliam. (See Roth v.

Kins (2006) 449 F.3d 1272, 1286-1287.)": (See Docket No. 1 Plaintiff-Appellant’s
Federal Complaint page 3 footnote lciting Mitch um vs. f oster 92~S7Ct7~215Tf2T6T)
(Also see Hoover v. Tucker CA4/1 Court ofAppeal, Fourth Appellate District
Division One State of California quoting from pages 8 and 9). Further, the Circuit
Court unlawfully and unjustly and fraudulently ignores this major legal and factual
issue in the Petitioner’s appeal depriving and denying me, the Petitioner full due
process and equal protection of laws of the United States under color of state and
federal pursuant to the 1st, 4th ,5th, and 14th Amendments to the United States
Constitution and pursuant to Title 42 USC Section 1983 and 1985 and 1988 of the
Civil Rights Act under color of state and abrogating their oath of office and their
obligation to the United States Constitution which is tantamount to treason and is a
reversible error requiring the Circuit Court’s Summary Order to be vacated remanded
back to the Federal District Court for a jury trial because no honest judicial review
occurred at the Circuit Court level and no true due process occurred at the Federal
District Court level and the Respondent was not allowed to answer and was unlawfully
and unjustly and fraudulently protected by certain lower Court judges from answering
the Petitioner’s truthful and to sworn claims cited in his Federal Civil Rights Equity
lawsuit seeking a declaratory judgment neither there was there any findings of fact and
conclusions of law render and absolutely no discovery done verify the Petitioner’s
verify claims against the Respondent.

3. Similarly Fea

. judge Ann M. Donnelly a judic

officer who has engaged

in numerous white supremacy acts against the Petitioner a Black and citizen of the
United States regarding his Federal Civil Rights actions and equity lawsuits and Federal
Complaints seeking only a declaratory judgment for years thereby denying and
depriving the Petitioner of his US Constitutional and Civil Rights along with denying
and depriving and other Black Americans so similarly situated of their
US Constitutional Rights and Civil Rights in whose cases have come before or been
assigned to them specially and specifically Federal judge Donnelly in the case of the
Petitioner who over the last 04 years unlawfully and unjustly and fraudulently
obstructed justice and stole from the Petitioner which I the Petitioner can and will prove
at a jury trial with a preponderance of documentary evidence. And so, is Federal judge
Ann M. Donnelly and right in this situation and case that the Respondent has so-called
“absolute immunity” or even judicial immunity from Petitioner’s lawsuit of equity to
redress deprivations of any of his rights, privileges, or immunities secured by
the Constitution and laws of the United States in a action at law and in a suit of equity,
brought via Title 42 U.S.C. Section 1983 etc...; an action where he Petitioner is seeking
to obtain a declaratory judgment by a jury trial against the Respondent and then
Petitioner seeks to enforce that declaratory judgment or show that according to the
particular circumstances presented such declaratory relief was not available; See,
Hoover v. Tucker CA4/1 Court ofAppeal, Fourth Appellate District Division One State
of California quotingfrom pages 8 and 9; and so, does Respondent have so-called
vi

“absolute immunity” or

1 judicial immunity from lawsui

f equity where Petitioner

is seeking permissible declaratory judgment? Furthermore, the Circuit Court again
abrogates appellate legal responsibility and duty and ignored the aforementioned legal
issue cited by me, the Petitioner for appellate review which is another reversible error
requiring the vacating of the Circuit Court’s Summary Order. Further, this
aforementioned legal issue of criminally violating and depriving Black American
citizens United States Constitutional Rights and Civil Rights by white state Court
judges in civil actions thru criminal acts is the most important legal issue facing Black
American citizens such as myself in civil cases and some federal civil cases where more
times than often white state judges and commits criminal acts against them as litigants
in the process of adjudicating their civil actions and by routinely criminally obstructing
justice and depriving them of full due process such as Court hearings and mostly jury
trials and then hiding behind this false faqade of absolute judicial immunity or judicial
immunity even from their criminal acts. Furthermore, is the Respondent above law and
are state Court judges above the law exempt for their criminal acts? Will other honest
judges police themselves or will they bury their heads in the sand?

Petitioner says no to the 3rd question presented that the Respondent does not
have “absolute immunity” or even judicial immunity against equity lawsuit brought via
a Title 42 U.S.C. Section 1983 seeking to obtain a declaratory judgment by a jury trial
against the Defendant-Appellant; especially when the Respondent was acting outside of
judicial capacity but unlawfully and unjustly mis-using his position and influence in the
vii

Black community to fak

slander and criminally defame t

'etitioner to top

NAACP state officials without just cause; because I the Petitioner wrote him letter of
complaint the Respondent re-acted with repeated acts of slander and defamation against
the Petitioner over the weekend and was not acting injudicial capacity. Like, the Circuit
Court and white Federal judge Donnelly does not address the fact the Petition’s lawsuit
of equity against the Respondent which is another grounds and legal basis reverse and
vacate the Summary Order dismissing the judgment in its entirety; therefore the
Plaintiff-Appellant’s appeal should prevail on those grounds alone therefore, this case
must be sent back for jury trial by the United States Supreme Court because the Circuit
Court unlawfully and unjustly and fraudulently refused afford the Petitioner any
appellate. Because the Respondent did the phone calling over the weekend when the
state Court was closed and unlawfully and unjustly used his position while not acting in
his judicial capacity to falsely slandered and criminally defame the Petitioner to top
NAACP state officials (See Docket No. 1 Petitioner’s Federal Complaint page3
footnote 1 citing Mitchum vs. Foster 92 S.Ct. 2151, 2161).

4. Further, is Petitioner asking for monetary or compensatory damages
from the Respondent Title 42 USC Section 1983 Civil Rights Action and lawsuit
of equity Federal judge Donnelly repeatedly implies and says the Plaintiff-Appellant is?
Petitioner says no to the 4th question presented for review. Furthermore, Federal judge
Donnelly is a liar and commits criminal fraud upon Federal Court when she says or
implies in the very latest of her false judgment and Memorandum and Order
viii

unlawfully and unjustly

missing Petitioner Federal Com^

it that Petitioner was

seeking damages from the Respondent; and that’s simply not the truth. Petitioner does
not cite monetary damages nowhere in his Federal Complaint against the Respondent;
and Petitioner does not even use the word damages in Federal Complaint; so, Federal
judge Donnelly is a liar and should be removed and impeached from the Federal Court
bench for intentionally distorting and misrepresenting Petitioner’s Federal Complaint
against the Respondent. Petitioner’s Federal Complaint is seeking a declaratory
judgment on his claims against the Respondent after a jury trial of the Respondent and
Petitioner is only seeking injunctive relief against the Respondent only if declaratory a
judgment or declaratory relief is unavailable and so far, that remains the case for Black
American citizens of the United States like myself in the Federal Court in the Second
Circuit even though Federal statutory permits this avenue of redress. If the judges
would police themselves there would be need for these legal remedies. Federal judge
Donnelly argument that judges need so-called “absolute immunity” for their official
acts in order to do their jobs; is another lie and fraud upon the Federal Court. For the
last twenty years since former President Clinton signed the Federal Court Improvement
Act of1996 amending the 1983 Civil Rights Act giving federal and state judges some
measure of immunity from monetary and punitive damages from Title 42 Section 1983
Civil Rights Act lawsuits the Courts have been in chaos and anarchy resulting in judges
misusing and abusing their power and depriving citizens especially Black Americans of
their US Constitutional and Civil Rights with impunity and allowing white supremacy
ix

judges like Federal judge

m M. Donnelly and rogue judici^^fficers like the

Respondent to run unchecked from the bench of Federal and State Courts resulting in a
broken Court system where there is no justice. The founders of this country broke away
from England by staging the American Revolution against absolute rulers; this country
and her Courts are founded on the legal principle and legal tradition that no man or
woman is above the law including judges. For 125 years the original Title 42 USC
Section 1983 of Civil Rights originally cited as the Ku, Klux, Klan Act of 1871 prior to
1996 has served this country well to protect Black Americans from white supremacy
state Court judges against judicial abuses from state officials wearing the badges of
state power and judicial corruption by in ensuring social justice and civil rights for all;
so for the claim that this Federal judge makes and other white state Court judges make
that judges cannot do their jobs because they might be sued is a lie and a fraud and
disaster for our court system; crimes by judges are actionable.

5. Did the Petitioner gives his consent pursuant to 73 Rule of the Federal
Rules of Civil Procedure and Local Rule 73.1 to assignment of Magistrate Judge to
conduct any proceeding in his Federal case Nehemiah Rolle vs. Norman St. George
19-cv-00947

The Petitioner’s answer to question 4 of issues presented for review is no;
absolutely not I, the Plaintiff-Appellant would not consent to a white supremacy
judicial officer like Magistrate judge Lois Bloom who has engaged in acts of white

supremacy against the Pv

oner regarding his Federal Civil

jhts Complaints and

civil rights actions along with acts of criminal fraud, criminal obstruction of justice and
perjury in those civil rights action including this civil action; there is no way Petitioner
has or would consent to Magistrate judge Lois Bloom conducting any proceeding in this
civil action or any other; in fact, Petitioner has complained to Federal judge Donnelly
regarding her own misconduct in this case regarding the mis-handling of the Petitioners
Federal Civil Rights Equity lawsuit and Federal judge Donnelly has ignored me, so far.
Further, the Circuit Court has also legally the criminal acts of Federal judge Ann M.
Donnelly against the Petitioner and certain handpicked U.S. Court of Appeals for the
Second Circuit who are white supremacy judges have aided and abetted judge Donnelly
in her racist criminal acts aforementioned against me, the Petitioner over the last 5 years
at least which I documentary and factual evidence and proof which I am prepared to
present in open Court to a jury.

5. Next, question is Federal judge Ann M. Donnelly judgment so-called
injunction on Petitioner filing Federal complaint in the Eastern District of New York
without her permission justified and legally binding?

The answer is no, no, no....; further, Federal judge Donnelly is another white
supremacy agent acting for others white supremacy judges sitting in the Eastern
District of New York who have criminally systematically blocked my access to the
Federal Court in the Eastern District of New York and jury trial and court hearings and
xi

jury trials for seeking d

ratory judgment and jury trials c

\y claims seeking just

compensatory damages for over a quarter century (25 years) no matter what the
circumstances or case. Further, Federal judge Donnelly knows nothing about the legal
history of court filings she attributes to me, Plaintiff-Appellant and has no, first hand
know of many these Federal complaints she is citing. First, I have never appeared
before Federal judge Ann M. Donnelly nor have afforded my US Constitutional Right
to a Court hearing or jury trial before judge Donnelly. I have never seen judge
Donnelly in open Court nor meet her in person in any capacity nor have I spoken to her
over the phone; evil loves to hide in the dark. Further, judge Donnelly just came to
Federal court as judge only few years ago and has no first knowledge of me, Petitioner
nor my Federal complaints. Donnelly was presented to me by white deputy clerks in
the Federal District of New York Central Islip Court as wolf in sheep clothing; but, has
continued to unlawfully and unjustly and fraudulently and act as racist/supremacy and
commit multiple criminal acts of against me, the Petitioner which begun with federal
judge Denis R. Hurley and former magistrate judge E. Thomas and federal judge Joanna
Seybert and magistrate judge Ann Y. Shields now magistrate Lois Bloom; these are the
most racist white supremacy judges sitting in the Eastern District of New York
regarding my Federal complaints and other Black Americans similarly situated. I, the
Petitioner have unlawfully and unjustly bottled up with the most racist and unfair judges
in the Eastern District of New York with virtually no full due process nor equal
protection of the laws as a citizen of the United States whose family has been in
United States for over 22 generations or least 173 years and counting. Many of these
xii

judges aforementioned «.

Jewish ethnicity and I the Petitic

a traditional Black

American am being treated by these same Jewish judges like Donnelly akin to how
Nazi Germany treated their Jewish citizens in the 1930’s and 1940’s stripping them of
their legal rights and using the Courts to steal from them and subjecting them to intense
discrimination and racism without due process of law or their day in open Court or jury
trial on their claims. Donnelly has just been a more re-fined white supremacy racist
judge against me, the Petitioner and more artful; but, the results still remains the same
and I can back-up what I am saying in open Court and with documentary proof. There
are still some fair-minded and progressive Federal judges in the Eastern District of
New York who follow the law and treat Black Americans like me with respect and
justice; but, my Federal complaints have never been assigned to them and if they
assigned to them they abruptly pulled away and placed back with the racist white
supremacy group of judges on the Court. I am petitioning the United States Supreme
Court to reverse judge Donnelly’s unlawful and unjust and false and fraudulent
injunction after a full adjudication and hearings on my appeal; Donnelly has stolen
Hundreds of Thousands of dollars from me in the past 5 years thru the Federal Court in
the Eastern District of New York and I can prove it with documentary evidence and
facts. I, the Petitioner urgent this United States Supreme Court to reverse this
unlawfully and unjust “Memorandum and Order and Decision and Judgment” and sent
this matter back for discovery and jury trial on the relief cited in the Petitioner’s Federal
Complaint against the Respondent; no American is above the law and immune from
xiii

their crimes anything eh

ould-be anarchy. Further, the C

it Court has again

ignored all of the aforementioned and abrogated their responsibility to review and
adjudicate my appeal which is another reversal error requiring the United States to
vacate this unlawfully and unjust and false and fraudulent “Memorandum and Order
and Decision and Judgment”. Furthermore, Circuit Court unlawfully and unjustly and
fraudulently took no position on the injunction was that I the Petitioner did not appeal
which is total falsehood and perjurious lie and criminal fraud on the of those three
Circuit Court judges who made that ruling whereas the whole Second Circuit Court
application to the whole Circuit buried their heads in the legal sand and choose not the
review my petition en banc. Further, did I the Petitioner appeal white judge Ann M.
Donnelly’s injunction?

Answer, yes absolutely quote “Notice is hereby given that I Plaintiff Nehemiah
Rolle, Jr., hereby appeals to the United States Court of Appeals for the Second Circuit
from each and every part of the false and fraudulent “Memorandum and Order
and Decision and Judgment” of federal judge Ann M. Donnelly dated February 05,
2019 and from each and every part of the false and fraudulent “Judgment” dated
February 7, 2019 in this civil action entered by the Clerk’s office on February 08,
2019”. I request oral argument.

xiv

List of Parties
Nehemiah Rolle, Jr.,
Acting as his own lawyer
909 3rd Avenue 6096
New York, New York 10150
646-387-1630

Norman St. George 99 Main Street
Hempstead, New York 11550

xv

Table of Contents
Page
Reason for Granting the Writ

l

List of Parties

li

Table of Authorities

XVII

Jurisdiction

1

Statement of the Case

1

Conclusion

17
Appendices

Appendix 1
Petitioner’s Federal Civil Rights Equity Lawsuit Seeking a Declaratory Judgment
Appendix 2
Petitioners Affidavits of Material Witnesses cited Civil Complaint and Appeal
Appendix 3
US Court of Appeals for the Second Denial for Panel Re-hearing or Re-hearing
en banc and Summary Order

xvi

Jurisdiction
This Court has jurisdiction of the petition to review the final judgment of_
United States Court of Appeals for the Second Circuit pursuant to Title 28 USC
Section 1254 “(1) By writ of certiorari granted upon the petition of any party to
any civil or criminal case, before or after rendition of judgment or decree;..
The Second Circuit’s Summary Order was filed on January 06, 2021 and
Petitioner’s Petition for Rehearing and Rehearing en banc was denied on
December 30, 2020.

The district Court had subject matter jurisdiction for this civil action
involves the willful and intentional violations under color of state and federal
law to unlawfully deprive Plaintiff of his First, Fourth, Fifth, Sixth, Seventh,
Eighth, Ninth, Tenth, Thirteenth and Fourteenth of the United States Constitution.
And, involves Article III Section 2, Clause 1, of the U.S. Constitution which states
that Judicial Power shall extend to all cases, in Law and Equity, arising under this
Constitution, the Laws of the United States, treaties made, or which shall be under
their Authority;

Article VI, Supreme Law of the Land; the Constitution

and laws of the United States, which shall be made in pursuance thereof. All
treaties made, under the Authority of the United States shall be, bound by that.
This action is brought in accordance with Title 42 U.S.C. Sections 1983 and 1985
Of the Civil Rights Act. This action is brought in accordance with Title U.S.C.
Sections 1983, 1985, and 1988 of the Civil Rights Act specifically the provision
seeking equitable relief and declaratory judgment. And, jurisdiction of the Court
and civil actions arises under Article III Section 2, Clause 1, of the
l

U.S. Constitution which that Judicial Power shall extend to all cases, in Law and
Equity, arising under this Constitution, the Laws of the United States, treaties
made, or which shall be, under their Authority; .... Article VI, Supreme Law
of the Land; the Constitution and laws of the United States, which shall be made in
pursuance thereof. All treaties made, under the Authority of the United States shall
be Supreme Law of the Land and the Judges in every state shall be bound by that.
This action is brought in accordance with Title U.S.C. Sections 1331 and 1342 and
Title 42 U.S.C. Sections 1983,1985, and 1988 of the Civil Rights Act.

Statement of the Case
Petitioner Nehemiah Rolle, Jr., a Black American (referred to as a traditional
Black-American) The Petitioner Nehemiah Rolle, Jr., brings this complaint against
the Respondent who the was the Nassau County District Supervising Judge as a
“lawsuit of equity to redress deprivations under color of state law for denying them
their rights, privileges, or immunities secured by the United States Constitution and
to interpose the federal courts between the states and the people, as guardians of
the people’s federal rights, and to protect the people from unconstitutional actions
under color of state law, whether that action is executive, legislative, or judicial.”
(Docket No. 1. citing from See. Mitehunt v. Foster 92 S.Ct. 2151,2161).

The facts show in Petitioner Nehemiah Rolle’s verified Federal Civil Rights
Complaint Petitioner brings this particular claim against the Respondent Norman

2

#

St. George because he willfully and intentionally and falsely engaged acts of
slander and defamation and perjurious utterances and actions against the Petitioner
that were false and was done by the Respondent to destroy Petitioner’s reputation
and to injury the Petitioner as NAACP member who made valid complaints that he
witnessed to the Respondent Norman St. George of mis-use and abuse of power
and criminal obstruction ofjustice and perjury and violations of the United States
Constitution and the Civil Rights Act Title 42 USC Section 1983 and 1985 under
color of state against the Respondent’s friend and associate Joseph Girardi a state
official who engaged in the aforementioned acts against another NAACP member
named Deborah Joseph in state proceedings; so the Defendant-Appellee
unlawfully and unjustly re-acted by setting out for revenge against the Plaintiff.
What the Respondent Norman St. George did after receiving a legal letter
of complaint from me, Petitioner of what I witnessed in state court proceeding on
behalf another NAACP member named Deborah Joseph was get on the phone over
the weekend and called and contact the state conference president for the NAACP
and vicious slander and defame me, the Petitioner slanderous and lies and
utterances and criminally perjurious statements in order to destroy my reputation
with the NAACP simply because I wrote letter of complaint to him about what I
witnessed in the state that was not fair and just regarding another
fellow NAACP member. Further, I was not the only NAACP member who
witnessed these unlawful and unjust acts by this subordinate state judge and
3

associate and friend of the Respondent Norman St. George who complained about
what they wp.re spring in

filed with the Federal Court from other witnessing NAACP members complaining
about this state judge named Joseph Girardi complaining about some of the same I
was witnessing in the state court proceeding that unlawful and unjust and not fair
and violations of the NAACP member Deborah Joseph’s United States
Constitutional Rights and Civil Rights the target and subject of this state court
Proceeding. This person NAACP member Deborah Joseph had neither criminal
record nor history of arrest. (See Affidavits of NAACP Witnesses echoing the
Petitioner Legal Complaint to Respondent if heeded or investigation by the
Respondent the Case would not have occurred). Further, it was Respondent
Norman St. George as supervising judge who abruptly assigned this state official
Joseph Girardi to preside over the NAACP Deborah Joseph state court case. So,
why the vicious slanderous and criminal defamation on me, the Petitioner by the
Respondent to top NAACP state officials?

Next, if only the Respondent Norman St. George would have made some
inquiries and did an investigation in response to letter of complaint to the
Respondent Norman St. George instead of reacting by viciously lashing out over
the phone over a weekend to top state NAACP officials with slanderous and false
utterances and criminally perjurious statements against me, the Petitioner about
4

what I allegedly did in order to destroy my reputation with me top state ranking
NAACP officials this wonlcLnot_he a case. T would like to point to the Court and
direct the Court to take judicial notice that slander and defamation are criminal
offenses and what Respondent Norman St. George did to me, the Petitioner was
criminal because he made many phone calls to top NAACP over the weekend
falsely slandering and defaming me, Petitioner with unsubstantiated lies and
allegations and accusations all designed to totally destroy my reputation with the
NAACP and I did suffer severe harm and repercussions as a of the Respondent’s
unlawful and unjust and criminal actions. This Federal Complaint must be sent
back for a jury trial and further Court proceedings in the District Court; because
the Respondent’s has never answered the Petitioner’s Federal Complaint pro or con
or whether I the Petitioner am saying in my Federal Complaint is true or not true.
The Federal Complaint that Ann M. Donnelly a re-fined white supremacy Federal
judge who happens to be Jewish abruptly unlawfully and unjustly and criminally
dismissed my Federal Complaint before the Respondent filed answer. I would like
the Court to take judicial notice that the Respondent did request an extension of
time from the Federal judge Ann M. Donnelly to answer the Respondent’s
Complaint but, he did not follow the Federal Rules of Civil Procedure nor the local
court rules of the Eastern District of New York and request or get consent from the.
Petitioner nor did he inform me that he was making such an application which is
another legal basis and grounds for reversing the Federal judge Ann M. Donnelly’s
5

Memorandum and Order along with Magistrate judge Lois Bloom act of granting
of the extension of time; but, she did note for record that the Respondent broke the
law “did not seek plaintiffs consent first

” which is another legal basis and

grounds for reversing the false and fraudulent judgment and Memorandum and
Order in its entirety.

Next, legal technical grounds for an immediate reversal by this Court
occurred when Magistrate judge Lois Bloom involved her in this case in violation
of Federal Rules of Civil Procedure 73 and 73.1. I, the Petitioner did not consent
to Lois Bloom’s involvement my because she also is white supremacy Magistrate
judge who happens to Jewish and is extremely hostile and biased and prejudiced
against me, the Petitioner Nehemiah Rolle a traditional Black American who
Bloom’s hates and despises the Plaintiff-Appellant. Magistrate judge Bloom acted
as a legal hatchet person to unlawfully and unjustly and fraudulently illegal means
to dismantle the Petitioner Federal Civil Rights Equity law seeking a Declaratory
judgment against the Respondent. And, I can prove these claims and assertions
against Magistrate judge Lois Bloom who harbors animosity and has carried out
racist acts thru her illegal rulings against me, the Petitioner a Black American and
other similarly situated Black Americans who comes into her Court with a case or
whose Federal case unfortunately gets assigned to her like mine did; the results is a
legal lynching meaning an abrupt dismissal of your Federal Civil Complaint and
6

case with no jury trial. I the Petitioner can attest to this from experience because I
been in Magistrate Lois Bloom’s courtroom there is no due process or equal of the
laws and no justice for Black Americans like me. Furthermore, Circuit Court
unlawfully and unjustly and fraudulently took no position on the injunction, but
saying I the Petitioner did not appeal the injunction Order which is total falsehood
and perjurious lie and criminal fraud on the of those three Circuit Court judges
who made that ruling whereas the whole Second Circuit Court application to the
whole Circuit buried their heads in the legal sand and choose not the review my
petition en banc.
Conclusion
Petitioner Nehemiah Rolle, Jr. requests and seeks jury trial for declaratory
judgment against the Respondent and fair-minded Federal judge to conduct that
jury trial against the Respondent. Furthermore, I am petitioning the United States
Supreme Court to reverse judge Donnelly’s unlawful and unjust and false and
fraudulent injunction after a full adjudication and hearings on my appeal; Donnelly
has stolen Flundreds of Thousands of dollars from me in the past 5 years thru the
Federal Court in the Eastern District of New York and I can prove it with
documentary evidence and facts. I, the Petitioner urges this United States Supreme
Court to reverse this unlawfully and unjust “Memorandum and Order and Decision
and Judgment” and sent this matter back for discovery and jury trial on the relief
7

cited in the Petitioner’s Federal Complaint against the Respondent; no American is
aboveJhe law and imm
Further, the Circuit Court has again ignored all of the aforementioned and
abrogated their responsibility to review and adjudicate my appeal which is another
reversal error requiring the United States to vacate this unlawfully and unjust and
false and fraudulent “Memorandum and Order and Decision and Judgment”.
Furthermore, Circuit Court unlawfully and unjustly and fraudulently took no
position on the injunction was that I the Petitioner did not appeal which is total
falsehood and perjurious lie and criminal fraud on the of those three Circuit Court
judges who made that ruling whereas the whole Second Circuit Court application
to the whole Circuit buried their heads in the legal sand and choose not the
review my petition en banc. I, Petitioner did appeal the unlawful and unjust and
fraudulently injunction and petition the United States Supreme Court to reverse
and vacated it. I request oral argument.
Dated:

August 04, 2021

Respectfully submitted,
By
Nehemiah Rolle, Jr. Petitioner
Acting as his own lawyer
909 3rd Avenue 6096
New York, New York 10150
646-387-1630

Sworn to• before me this Chj
a
2Q21
'ANotary Public
Miguel A. Hernandez
Notary Public, Stein of N©w York
No. 01HE6393873
Qualified in Nassau County
Commission Expires 10/07/2023
r.v->v,.' -

$

8

